HHS/OIG-Audit--"Review of Contracted Training Costs Allocated to Federally-Funded Programs Administered by the Florida Department of Health and Rehabilitative Services, (A-04-95-00085)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Contracted Training Costs Allocated to Federally-Funded Programs Administered by the Florida Department
of Health and Rehabilitative Services," (A-04-95-00085)
March 12, 1996
Complete
Text of Report is available in PDF format (860 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the review was to determine the allowability of contracted training cost allocated to federally funded
programs administered by the Florida Department of Health and Rehabilitative Services (DHRS) during State Fiscal Years
(SFY) ending June 30, 1994 and 1995.
Our review of Title IV-E contracted training cost showed:
* Administrative cost exceeded the maximum amount allowed under State law by $626,071. The DHRS believed it was permissible
to use such excess administrative cost to meet Federal matching requirements. According to a DHRS official, the State has
discontinued reporting cost in excess of the capped amount.
* Cost recorded in DHRS' accounting records was $148,627 less than cost reported to the Federal Government. We believe
reported cost exceeded recorded cost because of flaws in the computerized grant reporting system recently implemented by
DHRS.
* Administrative cost totaling $172,653 ($98,635 for SFY 1994 and $74,018 for SFY 1995) was claimed at an enhanced Federal
Financial Participation (FFP) rate rather than the lesser administrative cost rate. A DHRS official said it was an administrative
oversight that caused DHRS to claim administrative cost at an enhanced rate rather than the appropriate lesser rate.
We are recommending DHRS make a financial adjustment of:
* $626,071 ($469,554 FFP) applicable to administrative cost in excess of the amount allowed by State law,
* $148,627 ($111,470 FFP) applicable to cost reported in excess of cost recorded, and
* $74,018 (FFP) applicable to administrative cost claimed for SFY 1995 at an enhanced rate rather than the lesser administrative
cost rate.
We also recommend that DHRS:
* limit future administrative cost claims to amounts allowed by State law,
* identify and correct the flaws in its new computerized grant reporting system, and
* calculate future claims for administrative cost using the federally established administrative cost rate rather than
the enhanced FFP rate.
In written comments to our draft report, DHRS agreed with our recommendation.